CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Matthew Steven Janson
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STATE
OKLAHOMA V. JANSON PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority Mail, prepaid for deliveryto the following address.
OF

Kevin D. Adams
Attorney at Law
36 East Cameron Street, Suite 16
Tulsa, OK 74103
(918) 582-1313
kadams@lawyer.com
Counsel for Matthew Steven Janson

Lucas DeDeus

August 27, 2021
SCP Tracking: Mansinghani-313 N.E. Twenty-First Street-Cover White

